o         Smithsonian Institution

          Office of the Inspector General


  Date    February 22,2010

    To 	 Bruce Kendall, Director, Office of Facilities, Engineering and Operations (OFEO)
          Robert Fraga, Director, Office of Contracting and Personal Property Management
          Sheryl Kolasinski, Director, Office of Planning and Policy Management, OFEO
          Kenneth Johnson, Associate Director, Office of Planning, Management, and Budget

     cc   Alison McNally, Under Secretary for Finance and Administration

 From     ct.~~~~, Inspector General
Subject   Management Advisory on Reporting Recovery Act Jobs Data, Number M-10-04-1

          Summary
          In January 2010, companies under contract with the Smithsonian to perform work
          funded by the American Recovery and Reinvestment Act (Recovery Act) submitted
          their quarterly reports as required by the law. The reports summarized the financial
          activity of each company and included data on jobs created and retained. We
          reviewed the clauses of the Federal Acquisition Regulation (FAR) regarding jobs
          reporting, confirmed our understanding with the Recovery Act and Transparency
          Board (RA TB), and concluded that the prime contractors are over-reporting the
          number of jobs created and retained from Recovery Act funds. Specifically, in the
          reports submitted to the Smithsonian for the quarters ending September 30, 2009
          and December 31, 2009, prime contractors included jobs data about their own
          companies as well as jobs data from companies with which they entered into
          subcontracts. FAR clause 52 204-11, which all the federal contracts with the
          Smithsonian are subject to, instructs prime contractors to limit their job reports to
          only those created and retained by prime contractors. While reporting on jobs
          created and retained by both prime contractors and subcontractors is understandable
          given the purpose and spirit of the Recovery Act, doing so is inconsistent with the
          FAR and therefore overstates the number of jobs created or retained.

          Background
          In response to the economic crisis facing the country, Congress passed the American
          Recovery and Reinvestment Act of2009. The Recovery Act had three immediate
          goals:
               •    Create new jobs as well as save existing jobs
               •    Spur economic activity and invest in long-term economic growth
               •    Create greater accountability and transparency in government spending



           MRC 524
           PO Box 37012
           Washington DC 20013-7012           Page I of 4
           202.633.7050 Telephone
           202.633.7079 Fax
The Act sought to achieve those goals by providing $288 billion in tax cuts and
benefits, increasing federal funds for education, health care, and entitlement
programs by $224 billion, and making $275 billion available for federal contracts,
grants, and loans. It also requires recipients of Recovery Act funds to report
quarterly on monies spent, the status of their projects, the number of jobs created
and/or saved, and other details.

To promote accountability and transparency in the use of funds, the Recovery Act
created a public website that tracks how and where Recovery Act funds are spent.
Recovery.gov is operated by the RATB. The Board comprises 12 Inspectors General
from various federal agencies and is charged with providing transparency in relation
to the use of Recovery Act-related funds and preventing and detecting fraud, waste,
and mismanagement.

The Office of Management and Budget (OMB) publishes guidance to federal entities
on how they should implement the programs and activities in the Recovery Act,
including guidance on recipient reporting. In December 2009, OMB issued its
Updated Guidance on the American Recovery and Reinvestment Act - Data Quality,
Non-Reporting Recipients, and Reporting Job Estimates. In it, OMB specifically
instructs federal contractors to continue to comply with FAR clause 52.204-11 as it
relates to reporting data on jobs created and retained. The FAR defines "jobs
created" and "jobs retained," and in spelling out the definitions clearly calls for
recipients to limit their application only to prime contractors. The FAR states that
both definitions "cover only prime contractor positions established in the United
States and outlying areas."

Smithsonian Institution
The Recovery Act provided the Smithsonian Institution with $25 million for the
repair and revitalization of existing facilities. Using its Recovery Act resources, the
Smithsonian undertook several revitalization projects to improve the safety and
security of its visitors, staff, and collections. The projects involve repairs and
improvements at the Arts and Industries Building and the National Zoological Park
as well as other projects at its museums and facilities in Washington, D.C., Maryland,
and Virginia. To implement the projects, the Smithsonian entered into multiple
contracts with various companies, which included numerous subcontracts. Based on
these contracts, prime contractors submitted 23 reports through
FederalRepo rting.gov. For 12 ofthe 23 reports, prime contractors included
subcontract jobs created and retained in their numbers.




                                  Page 2 of 4
Smithsonian managers routinely monitor all aspects of the projects, including
guiding the prime contractors on their reporting duties under the Recovery Act. In
reviewing the reports posted to FederalReporting.gov for the quarters ending
September, 2009, and December, 2009 we noted that in some cases prime contractors
included data on jobs created and retained for both themselves and their
subcontractors. Though we did not confirm the completeness or accuracy of the
information contained in the reports, we noted the following jobs data for the two
quarters.

                   Number of Reported Jobs Created or Retained
                                        Third         Fourth
                                    Quarter 2009 Quarter 2009
                  Prime Contractors       89             83
                  Subcontractors          39             55
                  Total                  128            138


Under FAR Clause 52.204.-11, the recipients should have limited their jobs data to
just those created and retained by the prime contractors themselves. By including
data from subcontractors, we believe that the prime contractors overstated the
number of jobs created and retained for both quarters.

We recognize that reporting jobs data from all recipients of Recovery Act funds
seems to be in keeping with the expressed goals of the Act. Excluding the actual effect
on jobs creation and retention from the ultimate recipient appears to run contrary to
the purpose of the Recovery Act. In all likelihood, such a practice will result in
understating the full effect of the Recovery Act. We also note that the OMB
reporting guidance issued in December 2009 instructs federal agencies that awarded
Recovery Act funds in the form of grants or loans to include jobs data from sub­
recipients. Thus, the reporting guidance appears to treat subcontractors differently
from grant and loan sub-recipients. So it is understandable why the prime
contractors are reporting subcontractor jobs data.

Other Considerations
The adverse effect on reporting jobs data from following the subject FAR clause is a
matter under discussion within the Inspector General community. Many agencies
with significant Recovery Act funds earmarked for capital projects anticipate
extensive use of subcontractors in the course of the projects and have expressed


I Some prime contractor reports did not separately identify subcontract jobs; therefore, the number of

jobs reported by prime contractors may include subcontractor jobs.

                                       Page 3 of 4
concern that the true impact on jobs could be masked if they limit their reporting
only to prime contractors. One federal agency noted that an entire contract, in excess
of $100 million, may pass through to subcontractors, thereby creating the possibility
that it will report no job creation or retention associated with that project. We also
learned that other federal agencies have expressed their concern about this matter
directly to Recovery Act Officials in both the Office of Management and Budget and
the White House.

Conclusion
The practice of reporting jobs data from both prime contractors and their
subcontractors receiving Recovery Act funds from the Smithsonian appears to violate
the FAR Clause which stipulates that data on jobs created and retained should be
limited to prime contractors only. Though reporting jobs data from subcontractors
is understandable given the purpose of the Recovery Act, we recommend that the
Smithsonian instruct its prime contractors to limit the reporting of jobs created and
retained from Recovery Act funds to only prime contractors and discontinue the
practice of including subcontractor jobs data.

We will forward this report to the RATB for their consideration and would
encourage the Smithsonian to present their concerns directly to the Office of
Management and Budget on this matter.




                                  Page 4 of 4
